No. 20AIN THE

~upreme (!Court of tbe Wniteh ~tates
ALABAMA ASSOCIATION OF REALTORS, ET AL.,

Applicants,

v.
U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, ET AL.,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this Court,
I hereby certify that a copy of the Emergency Application for a Vacatur of the Stay Pending
Appeal Issued by the United States District Court for the District of Columbia in Alabama

Association ofRealtors v. HHS, No. 20A-__, was served via electronic mail and by thirdparty commercial carrier on all parties required:
Elizabeth B. Prelogar

Acting Solicitor General

DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for Respondents

Alisa B. Klein
Brian J. Springer

DEPARTMENT OF JUSTICE, CIVIL
DIVISION, APPELLATE STAFF

950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-1597
alisa.klein@usdoj.gov
brian.j .springer@usdoj.gov

Counsel for Respondents

I declare under penalty of perjury that the foregoing is

Date: June 3, 2021

